                    U.S. ELECTION ASSISTANCE
                           COMMISSION
                  OFFICE OF INSPECTOR GENERAL




                                     FINAL REPORT:

                 ADMINISTRATION OF PAYMENTS
                   RECEIVED UNDER THE HELP
                   AMERICA VOTE ACT BY THE
                 COMMONWEALTH OF KENTUCKY
                  STATE BOARD OF ELECTIONS

                        MAY 1,2003 THROUGH DECEMBER 31, 2006




Report No.      This report contained information that was redacted pursuant to 5
E-HP-KY-02-07   U.S.C. §§ 552(b)(6) of the Freedom of Information Act.
AUGUST 2007
                         U.S. ELECTION ASSISTANCE COMMISSION
                                  OFFICE OF INSPECTOR GENERAL
                                1225 New York Ave. NW - Suite 1100
                                      Washington, DC 20005



                                                                                  August 24, 2007


Memorandum

To:        Thomas Wilkey
           Executive Director

From:      Curtis W. Crider
           Inspector General

Subject:   Final Audit Report - Administration of Payments Received Under the Help America
           Vote Act by the Commonwealth of Kentucky Sate Board of Elections
           (Assignment Number E-HP-KY-02-07)

       We contracted with the independent certified public accounting firm of Clifton
Gunderson LLP (Clifton Gunderson) to audit the administration of payments received under the
Help America Vote Act (HAVA) by the Commonwealth of Kentucky State Board of Elections
(Board of Elections). The contract required that the audit be done in accordance with U.S.
generally accepted government auditing standards. Clifton Gunderson is responsible for the
attached auditor’s report and the conclusions expressed therein.

        Except for a need for the Board of Elections to provide for its shortfall in state matching
funds and to demonstrate how it complied with the maintenance of effort requirements, Clifton
Gunderson’s audit concluded that the Board of Elections generally accounted for and expended
HAVA funds in accordance with the HAVA requirements and complied with the financial
management requirements established by the U.S. Election Assistance Commission. The Board
of Elections also complied with section 251 requirement for an election fund.

       In a June 22, 2007 response to the draft report (Appendix A), the Board of Elections
 agreed with the report’s finding and recommendation related to the provision of additional state
 matching funds and related interest earnings; however, they disagreed with the finding that they
 had not met the maintenance of effort requirement. The response indicated that the state had
 provided the necessary funds to cover the state matching shortfall, including the interest earned.
 The response also included details on how the Board of Elections complied with the
 maintenance of effort regulations.

       Please provide us with your written response to the recommendations included in this
report by October 24, 2007. Your response should contain information on actions taken or
planned, including target dates and titles of EAC officials responsible for implementing the
recommendations.
        The legislation, as amended, creating the Office of Inspector General (5 U.S.C. § App.3)
requires semiannual reporting to Congress on all audit reports issued, actions taken to implement
audit recommendations, and recommendations that have not been implemented. Therefore, this
report will be included in our next semiannual report to Congress.

       If you have any questions regarding this report, please call me at (202) 566-3125.
                                                          PERFORMANCE AUDIT REPORT

                                                        ADMINISTRATION OF PAYMENTS
                                                            RECEIVED UNDER THE
                                                        HELP AMERICA VOTE ACT BY THE
                                                        COMMONWEALTH OF KENTUCKY

                                                         May 1, 2003 Through December 31, 2006


                                                              UNITED STATES ELECTION
                                                              ASSISTANCE COMMISSION




This report contained information that was redacted pursuant to 5 U.S.C. §§ 552(b)(6) of the Freedom of Information Act.
                                                      TABLE OF CONTENTS




                                                                                                                                              PAGE

EXECUTIVE SUMMARY...........................................................................................................................1

BACKGROUND .............................................................................................................................................2

AUDIT OBJECTIVES ..................................................................................................................................2

SCOPE AND METHODOLOGY.............................................................................................................3

AUDIT RESULTS..........................................................................................................................................4

APPENDICES

Appendix A: Board Of Election’s Response To Audit Results .........................................................9

Appendix B: Audit Methodology..............................................................................................................14

Appendix C: Monetary Impact as of December 31, 2006 ..................................................................16




      This report contained information that was redacted pursuant to 5 U.S.C. §§ 552(b)(6) of the Freedom of Information Act.
A1
                           U.S. Elections Assistance Commission
            Performance Audit of the Administration of Payments Received Under the
                   Help America Vote Act by the Commonwealth of Kentucky

EXECUTIVE SUMMARY

Clifton Gunderson LLP was engaged by the U.S. Election Assistance Commission (EAC or the
Commission) Office of Inspector General to conduct a performance audit of the Commonwealth of
Kentucky State Board of Elections (SBE) for the period May 1, 2003 through December 31, 2006 to
determine whether the SBE used payments authorized by Sections 101, 102, and 251 of the Help
America Vote Act of 2002 (HAVA or the Act) in accordance with HAVA and applicable
requirements; accurately and properly accounted for property purchased with HAVA payments and
for program income, and met HAVA requirements for Section 251 funds for an election fund, for a
matching contribution, and for maintenance of a base level of state outlays. In addition, the
Commission requires states to comply with certain financial management requirements, specifically:

   • Comply with the Uniform Administrative Requirements For Grants And Cooperative Agreements With
     State And Local Governments (also known as the “Common Rule”) as published in the Code of
     Federal Regulations 41 CFR 105-71.

   • Expend payments in accordance with cost principles for establishing the allowance or
     disallowance of certain items of cost for federal participation issued by the Office of
     Management and Budget (OMB) in Circular A-87.

   • Submit detailed annual financial reports on the use of Title I and Title II payments.

We conducted this performance audit in accordance with Generally Accepted Government Auditing
Standards. Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on the audit objectives. Because of inherent limitations, a study and
evaluation made for the limited purposes of our review would not necessarily disclose all weaknesses
in administering HAVA payments.

Except for the state’s matching of funds and maintenance of effort, which are discussed below, our
audit concluded that SBE generally accounted for and expended HAVA funds in accordance with
the requirements mentioned above. This includes compliance with section 251 requirements for an
election fund. The exceptions noted above in two areas needing SBE’s management attention are as
follows:

   • As of December 31, 2006, there was a shortfall in the amount of funds provided by the state
     as matching funds, as well as lost interest earnings because of a delay in providing the
     matching funds.

    11710 Beltsville Drive, Suite 300
    Calverton, Maryland 20705
    tel: 301-931-2050


                                                                                                                    h
    fax: 301-931-1710                                           1
    www.cliftoncpa.com
                                                  Offices in 15 states and Washington, DC
    This report contained information that was redacted pursuant to 5 U.S.C. §§ 552(b)(6) of the Freedom of Information Act.
    • The state did not provide sufficient detail regarding its maintenance of a base level of state
      outlays to determine it was meeting this requirement.

We have included in this report the SBE’s formal responses to the findings and recommendations
dated June 22, 2007. The SBE agreed with the recommendation related to the shortfall in state
matching funds. The SBE disagreed with the recommendation regarding the maintenance of effort.

BACKGROUND

The Help America Vote Act of 2002 created the U.S. Election Assistance Commission to assist
states and insular areas with the improvement of the administration of Federal elections and to
provide funds to states to help implement these improvements. HAVA authorizes payments to states
under Titles I and II, as follows:

    • Title I, Section 101 payments are for activities such as complying with Title III of HAVA for
      uniform and nondiscriminatory election technology and administration requirements,
      improving the administration of elections for Federal office, educating voters, training
      election officials and poll workers, and developing a state plan for requirements payments.

    • Title I, Section 102 payments are available only for the replacement of punch card and lever
      action voting systems.

    • Title II, Section 251 requirements payments are for complying with Title III requirements for
      voting system equipment; and for addressing provisional voting, voting information,
      statewide voter registration lists, and voters who register by mail.

Title II also requires that states must:

    • Have appropriated funds “equal to 5 percent of the total amount to be spent for such
      activities [activities for which requirements payments are made].” (Section 253)(5)).

    • “Maintain the expenditures of the State for activities funded by the [requirements] payment at
      a level that is not less than the level of such expenditures maintained by the State for the fiscal
      year ending prior to November 2000.” (Section 254 (a) (7)).

    • Establish an election fund for amounts appropriated by the state “for carrying out the
      activities for which the requirements payment is made,” for the Federal requirements
      payments received, for “such other amounts as may be appropriated under law,” and for
      “interest earned on deposits of the fund.” (Section 254 )(1)).

AUDIT OBJECTIVES

The objectives of our audit were to determine whether the Commonwealth of Kentucky:

    1. Used payments authorized by Sections 101, 102, and 251 of the Help America Vote Act
       (HAVA) in accordance with HAVA and applicable requirements;

    2. Accurately and properly accounted for property purchased with HAVA payments and for
       program income;


                                                               2

    This report contained information that was redacted pursuant to 5 U.S.C. §§ 552(b)(6) of the Freedom of Information Act.
     3. Met HAVA requirements for Section 251 funds for an election fund, for a matching
        contribution, and for maintenance of a base level of state outlays.

In addition, to account for HAVA payments, the Act requires states to maintain records that are
consistent with sound accounting principles, that fully disclose the amount and disposition of the
payments, that identify the project costs financed with the payments and other sources, and that will
facilitate an effective audit. The Commission requires states receiving HAVA funds to comply with
certain financial management requirements, specifically:

     4. Comply with the Uniform Administrative Requirements For Grants And Cooperative Agreements With
        State and Local Governments (also known as the “Common Rule”) as published in the Code of
        Federal Regulations at 41 CFR 105-71.

     5. Expend payments in accordance with cost principles for establishing the allowance or
        disallowance of certain items of cost for federal participation issued by the Office of
        Management and Budget (OMB) in Circular A-87.

     6. Submit detailed annual financial reports on the use of Title I and Title II payments.1

SCOPE AND METHODOLOGY

We audited the HAVA funds received and disbursed by the SBE from May 1, 2003 through
December 31, 2006.

Funds received and disbursed from May 1, 2003 (program initiation date) to December 31, 2006
(45-month period) are shown below:


                                         FUNDS RECEIVED
     TYPE OF          EAC               STATE   INTEREST                    TOTAL               FUNDS               DATA
    PAYMENT         PAYMENT             MATCH    EARNED                   AVAILABLE           DISBURSED             AS OF

       101             $ 4,699,196               $0           $471,704         $5,170,900         $   325,730      12/31/06
       102                 469,256                0             17,523            486,779             469,229      12/31/06
       251              32,899,292        1,575,200          1,812,229         36,286,721          19,554,337      12/31/06

                      $38,067,744        $1,575,200        $2,301,456         $41,944,400         $20,349,296

     Note:    The above table does not include auditor’s adjustments for the state matching
              shortfall ($156,341) and estimated additional interest earned on the shortfall through
              December 31, 2006 ($4,700).

Our audit methodology is set forth in Appendix B.


1EAC requires states to submit annual reports on the expenditure of HAVA Sections 101, 102, and
251 funds. For Sections 101 and 102, reports are due on February 28 for the activities of the
previous calendar year. For Section 251, reports are due by March 31 for the activities of the
previous fiscal year ending on September 30.


                                                                3

     This report contained information that was redacted pursuant to 5 U.S.C. §§ 552(b)(6) of the Freedom of Information Act.
AUDIT RESULTS

We conducted this performance audit in accordance with Generally Accepted Government Auditing
Standards. Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on the audit objectives. Because of inherent limitations, a study and
evaluation made for the limited purposes of our review would not necessarily disclose all weaknesses
in administering HAVA payments.

Except for the state matching funds and maintenance of effort, our audit concluded that SBE
generally accounted for and expended HAVA funds in accordance with the requirements mentioned
above. This includes compliance with section 251 requirements for an election fund and for
maintenance of a base level of state outlays. The exceptions in two areas needing SBE’s
management attention are described below:

I.    State Matching Funds

As of December 31, 2006, there is a $156,341 shortfall in the amount of state matching funds
required to augment Section 251 HAVA funds received, because the requirement to provide an
additional amount equal to 5% of the state matching funds was not considered. The method of
computing the amount of the state matching funds, as set forth in HAVA Section 253(b)(5), is to
divide the requirements payments to be received from the federal government by 95%, and then
multiply the grossed up number by 5%. For Kentucky, the $32,899,292 Section 251 proceeds,
divided by 95%, equals $34,630,834. The difference of $156,341 is from the state matching
requirement of $1,731,542, compared to the amount provided by the state totaling $1,575,200.

In addition, 100% of the state matching funds transferred to the HAVA accounts were not
deposited in advance of receiving the Sec. 251 requirements payments. They were paid in
installments in July 2005 and June 2006. Although interest earned on the funds was recomputed by
the State to ensure that earnings were not lost, there is lost interest on the shortfall, estimated to be
$4,700, computed retroactively to the date the funds should have been deposited. The basis for the
estimated interest computation was lower than the actual shortfall, since the recomputation by the
state was based on a higher amount than was actually deposited.

Recommendations:

1.    Ensure that the state matching funds shortfall of $156,341 is transferred to the HAVA election
      fund.

2.    Determine the actual amount of lost interest income, which we estimated at $4,700 based on
      the required state matching funds total from the date of receipt of the Section 251
      requirements payment from the federal government, and transfer the earnings to the HAVA
      election fund.




                                                                4

     This report contained information that was redacted pursuant to 5 U.S.C. §§ 552(b)(6) of the Freedom of Information Act.
SBE’s Response:

In its response to the draft finding, the SBE agreed with the recommendation and contacted the
Controller of the Finance and Administration Cabinet of Kentucky, and informed him of the
findings of the auditor and requested that he determine what actions would be necessary to rectify
the situation.

On March 30, 2007, the Controller informed the State Board of Elections that the Finance and
Administration Cabinet (“The Cabinet”) took the following actions to address the conditions
identified in the recommendation concerning Kentucky’s State Matching Funds:

          1) The Cabinet appropriated, allotted, and transferred $156,341 to the Election Fund
             account;
          2) The Cabinet credited interest earnings in the actual amount of $9,238.01 to the Election
             Fund account.

II.    Maintenance of Effort

1.    The State did not identify the amount of its expenditures in fiscal year 2000 for HAVA Section
      251-type activities. Thus, the auditors were unable to determine if the State met its requirement
      to maintain the expenditures of the State for activities funded by the HAVA Section 251
      requirements payment in FYs 2004, 2005, and 2006.

      The State Board of Elections (SBE) received $4,699,196 in HAVA Section 101 funds and
      $32,899,292 in HAVA Section 251 funds. Kentucky’s state plan states that it would use its
      HAVA funds for the following:

           •    Ensuring compliance with Voting System Standards as set forth in HAVA
           •    Establish Provisional Voting and Voting Information Requirements
           •    The Statewide interactive voter registration system
           •    Voting Rights of Military and Overseas Citizens
           •    Purchasing one HAVA compliant voting machine with software per polling place
           •    Voter education programs
           •    Polling place improvements/increased accessibility
           •    Training

      The State, in its Preliminary 2006 Amended State Plan, described the activities for which the
      Section 101 funds would be used. However, it did not identify whether it had incurred any
      costs in fiscal year 2000 for similar activities. Thus, there was no benchmark or subsequent
      years’ state expenditures with which to evaluate compliance with maintenance of effort
      requirement.

2.    The State Plan only provides that the Governor’s Office of Policy and Management (GOPM)
      will ensure that the Maintenance of Effort (MOE) requirement will be met, but there is no
      information in the Plan on what level of MOE is required or how it will be met.




                                                                 5

      This report contained information that was redacted pursuant to 5 U.S.C. §§ 552(b)(6) of the Freedom of Information Act.
Recommendations:

1. Determine the level of state expenditures in fiscal year 2000 and fiscal years 2004, 2005, and
   2006 for activities for which it received requirements payments. These amounts should be
   classified as expenditures which were funded by the State through annual appropriations.

2. Compare the level of expenditures in Fiscal Year 2000 with the level of expenditures in fiscal
   years 2004, 2005, and 2006 funded by the State’s annual appropriations and determine if the
   State met its maintenance of effort requirements.

3. If, the level of state expenditures for 251-type activities in fiscal years 2004, 2005, and 2006 were
   less than in 2000, require the state to obtain supplemental funding to meet its maintenance of
   effort requirements and adjust its accounts and annual financial status reports to the Election
   Assistance Commission accordingly.

4. Amend the State Plan to provide more specific information on the required level of MOE, based
   on Title III category expenditures in FY2000.

SBE’s Response:

The SBE disagreed with the recommendation, and in its response to the draft finding stated that:

Pursuant to HAVA §254(a)(7), all states were required to answer the following in each state’s State
Plan: “How the State, in using the requirements payment, will maintain the expenditures of the
State for activities funded by the payment at the level that is not less than the level of such
expenditures maintained by the State for the fiscal year ending prior to November 2000. Kentucky’s
State Plan provided that “The Governor’s Office of Policy and Management evaluated the budget of
the Kentucky State Board of Elections to ensure that the Maintenance of Effort has been met.”
(2003 Kentucky State Plan, p. 18).

Since the Election Assistance Commission was not in existence in 2002 when the States were left
alone to decipher the language and requirements of HAVA in drafting their State Plans, Kentucky,
as well as other states, developed an understanding concerning Maintenance of Effort based on
advice gathered from The Election Center’s HR 3295 Special Workshop in December of 2002,
which included panel discussions with the HAVA bill drafters and other pertinent election officials.
Considering Kentucky’s unique position of having its Voter Registration Database used as a model
for HAVA, Maintenance of Effort does not apply in the same manner to Kentucky as it would to
other states that did not have HAVA-compliant databases in 2002. Thus, Kentucky was left in the
dark as to how to address Maintenance of Effort in its 2003 State Plan. Furthermore, as of the date
of this Response, the Election Assistance Commission, which has been in existence since 2004, has
failed to provide any guidance to Kentucky as to how to address this issue.

With heretofore limited guidance from the EAC on this matter, it is the State Board of Elections’
understanding that “activities funded by the payment” include activities required under Title III,
which are limited to the purchasing of voting systems, voter education, and computerized statewide
voter registration systems. During the fiscal year ending prior to November 2000,




                                                               6

    This report contained information that was redacted pursuant to 5 U.S.C. §§ 552(b)(6) of the Freedom of Information Act.
    (1) Kentucky did not expend any funds to purchase voting systems as such systems are
        purchased and owned on the local level pursuant to Kentucky state law contained in KRS
        117.105, 117.115, and 117.135;
    (2) Kentucky did not expend any funds on conducting voter education; and
    (3) Kentucky’s Statewide Voter Registration Database was in existence and HAVA-compliant in
        the year 2000, as Kentucky’s system was used as a basis for the language in HAVA.
        Kentucky is not and has not used federal funds to set up or maintain its Statewide Voter
        Registration Database.

Pursuant to the EAC’s Guidelines for conducting an audit listed on its website, on page 19 under
Maintenance of Effort, Number 8(a), the auditor must “obtain from the state its total expenditures
in fiscal year 2000 related to activities currently funded by requirements payments.” This
language, which derives from HAVA §254(a)(7), states specifically that the activities that are covered
under Maintenance of Effort are those that are “currently funded” with HAVA funds. “Currently
funded” does not mean activities that are eligible, but not funded by federal dollars, but must be
defined as activities funded during FYs 2004, 2005 and 2006 (the periods covered by the audit) with
HAVA funds. Any other interpretation would mean that Kentucky will be penalized for having an
existing, HAVA-compliant voter registration database prior to HAVA’s enactment—a database that
was used as a model for HAVA. This interpretation was not contemplated by the drafters of HAVA
and is an anathema of the clear intent of the HAVA legislation.

Kentucky contends that HAVA §254(a)(7), clearly states that Maintenance of Effort shall be
determined by “the expenditures of the State for activities funded by the payment at the level that
is not less than the level of such expenditures maintained by the State for the fiscal year ending prior
to November 2000.” Activities currently funded by the payment include activities required under
Title III, which are limited to the purchasing of voting systems, voter education, and computerized
statewide voter registration systems that are being funded by Kentucky during FYs 2004, 2005 and
2006, the time periods that were reviewed pursuant to the audit. As stated by the State Board of
Elections, Kentucky expended zero funds to support activities for voter education and purchase of
voting equipment during FY 2000.

As for funds expended during FY 2000 for the maintenance of the voter registration database,
Kentucky has not and will not expend federal funds to maintain the Kentucky Voter Registration
Database because this system was and has been HAVA-compliant since the inception of HAVA.
Therefore, Kentucky contends that the only proper interpretation of the language in HAVA
§254(a)(7) is that maintenance of effort applies only to activities currently funded during FYs 2004,
2005 and 2006 with HAVA funds.

The SBE, in its response to the draft audit report, Appendix A, included a schedule of the amounts
they have determined comprise the state’s Maintenance of Effort in compliance with HAVA.

Auditor’s Response:

Although we have not audited the amounts included in the Maintenance of Effort schedule prepared
by the SBE, as set forth in Appendix A, and cannot attest to their accuracy, the amounts as shown
support the state’s compliance with the HAVA requirements.

                                   ****************************************



                                                               7

    This report contained information that was redacted pursuant to 5 U.S.C. §§ 552(b)(6) of the Freedom of Information Act.
We provided a draft of our report to the appropriate individuals of the Commonwealth of Kentucky
State Board of Elections, and the United States Election Assistance Commission. We considered
any comments received prior to finalizing this report.

CG performed its work between January 22, 2007 and May 21, 2007.


a1
Calverton, Maryland




                                                               8

    This report contained information that was redacted pursuant to 5 U.S.C. §§ 552(b)(6) of the Freedom of Information Act.
                                                                                                                       Appendix A




                                                     9


This report contained information that was redacted pursuant to 5 U.S.C. §§ 552(b)(6) of the Freedom of Information Act.
                                                           10
This report contained information that was redacted pursuant to 5 U.S.C. §§ 552(b)(6) of the Freedom of Information Act.
                                                          11
This report contained information that was redacted pursuant to 5 U.S.C. §§ 552(b)(6) of the Freedom of Information Act.
                                                            12
This report contained information that was redacted pursuant to 5 U.S.C. §§ 552(b)(6) of the Freedom of Information Act.
                                                          13
This report contained information that was redacted pursuant to 5 U.S.C. §§ 552(b)(6) of the Freedom of Information Act.
                                                                                                                Appendix B

                                           AUDIT METHODOLOGY


Our audit methodology included:

• Assessing audit risk and significance within the context of the audit objectives.

• Obtaining an understanding of internal control that is significant to the administration of the
  HAVA funds.

• Understanding relevant information systems controls as applicable.

• Identifying sources of evidence and the amount and type of evidence required.

• Determining whether other auditors have conducted, or are conducting, audits of the program
  that could be relevant to the audit objectives.

To implement our audit methodology, below are some of the audit procedures we performed:

• Interviewed appropriate SBE employees about the organization and operations of the HAVA
  program.

• Reviewed prior single audit report and other reviews related to the state’s financial management
  systems and the HAVA program for the last 2 years.

• Reviewed policies, procedures and regulations for the SBE’s management and accounting
  systems as they relate to the administration of HAVA programs.

• Analyzed the inventory lists of equipment purchased with HAVA funds.

• Tested major purchases and supporting documentation.

• Tested randomly sampled payments made with the HAVA funds.

• Verified support for reimbursements to local governments (counties, cities, and municipalities).

• Reviewed certain state laws that impacted the election fund.

• Examined appropriations and expenditure reports for state funds used to maintain the level of
  expenses for elections at least equal to the amount expended in fiscal year 2000 and to meet the
  five percent matching requirement for section 251 requirements payments.

• Reviewed/examined information regarding source/supporting documents kept for maintenance
  of effort and matching contributions.


                                                              14

    This report contained information that was redacted pursuant to 5 U.S.C. §§ 552(b)(6) of the Freedom of Information Act.
• Evaluated compliance with the requirements for accumulating financial information reported to
  the Commission on the Financial Status Reports, Form SF 269, accounting for property,
  purchasing HAVA related goods and services, and accounting for salaries.

• Verified the establishment and maintenance of an election fund.

• Verified whether the state has sustained the state’s level of expenditures for Elections.




                                                              15

    This report contained information that was redacted pursuant to 5 U.S.C. §§ 552(b)(6) of the Freedom of Information Act.
                                                                                                            Appendix C



              MONETARY IMPACT AS OF DECEMBER 31, 2006


                                                                Questioned                  Additional Funds for
                   Description                                    Costs                           Program

State Match Delayed Deposit Interest Shortfall                                                                $   4,700

State Match Shortfall                                                                                          156,341

Totals                                                                          0                             $161,041




                                                          16

This report contained information that was redacted pursuant to 5 U.S.C. §§ 552(b)(6) of the Freedom of Information Act.
                      The OIG audit mission is to provide timely, high-quality
                      professional products and services that are useful to OIG’s clients.
                      OIG seeks to provide value through its work, which is designed to
                      enhance the economy, efficiency, and effectiveness in EAC
OIG’s Mission         operations so they work better and cost less in the context of
                      today's declining resources. OIG also seeks to detect and prevent
                      fraud, waste, abuse, and mismanagement in these programs and
                      operations. Products and services include traditional financial and
                      performance audits, contract and grant audits, information systems
                      audits, and evaluations.


                      Copies of OIG reports can be requested by e-mail.
                      (eacoig@eac.gov).

                      Mail orders should be sent to:
Obtaining
Copies of             U.S. Election Assistance Commission
                      Office of Inspector General
OIG Reports
                      1225 New York Ave. NW - Suite 1100
                      Washington, DC 20005
                      To order by phone: Voice: (202) 566-3100
                                          Fax: (202) 566-0957


To Report Fraud,      By Mail: U.S. Election Assistance Commission
Waste and Abuse                Office of Inspector General
Involving the U.S.             1225 New York Ave. NW - Suite 1100
Election Assistance            Washington, DC 20005
Commission or Help
                      E-mail:   eacoig@eac.gov
America Vote Act
Funds                 OIG Hotline: 866-552-0004 (toll free)

                      FAX: 202-566-0957
